HHS/OIG-Audit--"Review of Hospice Beneficiary Eligibility At Hospicio Del Oeste, Inc., (A-02-94-01029)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Hospice Beneficiary Eligibility At Hospicio Del Oeste, Inc.," (A-02-94-01029)
June 13, 1995
Complete
Text of Report is available in PDF format (1.37 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review, which included a medical evaluation of the hospice's eligibility determinations for 127 beneficiaries, showed
that 97 (77 percent) of those determinations were incorrect. As a result, the hospice claimed and improperly received Medicare
reimbursements totaling about $1.1 million. Although we did not find a reasonable explanation for the hospice's high rate
of error in eligibility determinations, we did determine that for the majority of the time period covered by our review,
claims processing controls at the Medicare fiscal intermediary (FI) were not entirely adequate. We are recommending that
the FI improve its claims processing controls through the incorporation of edits to detect and prevent payments on behalf
of ineligible hospice beneficiaries. Regarding the $1.1 million of improper Medicare reimbursements, we have referred this
matter to the OIG's Office of Investigations for additional investigation prior to the FI initiating recovery action on
the identified overpayments.